VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                      Inspection of 

                                                                    VA Regional Office 

                                                                     Houston, Texas 





                                                                                      June 24, 2013
                                                                                      13-00367-226
             ACRONYMS AND ABBREVIATIONS 


EP           End Product
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Inspection of VA
                  Regional Office, Houston, Texas

Why We Did This Review                            treatment. VARO staff provided adequate
                                                  outreach to homeless veterans; however, we
The Veterans Benefits Administration              cannot fully assess the effectiveness of
(VBA) has 56 VA Regional Offices                  VBA’s outreach activities because VBA
(VAROs) and 1 Veterans Service Center             needs a performance measure to assess its
nationwide that process disability claims and     homeless veterans outreach program.
provide a range of services to veterans. We
evaluated the Houston VARO to see how             What We Recommend
well it accomplishes this mission.
                                                  The VARO Director should implement a
What We Found                                     plan to ensure staff comply with VBA
                                                  policy to reduce temporary 100 percent
Overall, VARO staff did not accurately            disability evaluations and follow up on
process 37 (62 percent) of 60 disability          hearing requests associated with proposed
claims we reviewed. We sampled claims we          reductions in benefits. Further, staff should
consider to be at higher risk of processing       review the 689 temporary 100 percent
errors, thus these results do not represent the   disability evaluations remaining from our
overall accuracy of disability claims             inspection universe and take action to
processing at this VARO.                Claims    manage these evaluations appropriately.
processing lacks consistent compliance with       The Director needs to implement a plan to
VBA procedures and is resulting in paying         ensure effective training and accurate
inaccurate and unnecessary financial              second-signature reviews of traumatic brain
benefits.                                         injury claims. The Director should also
                                                  provide refresher training and ensure the
Specifically, 22 of 30 temporary 100 percent      Systematic Analyses of Operations checklist
disability evaluations we reviewed were           is amended to address all elements required
inaccurate. This generally occurred because       by current VBA policy.
VARO management did not ensure staff
took appropriate action to reduce benefits        Agency Comments
when required, and because staff did not
follow up on requests for hearings where          The VARO Director concurred with our
veterans could present additional evidence        recommendations. Management’s planned
to show that temporary 100 percent                actions are responsive and we will follow up
evaluations were still warranted. Also, staff     as required.
misinterpreted VBA policy and inaccurately
processed 15 of 30 traumatic brain injury
claims.

VARO managers did not ensure staff                          LINDA A. HALLIDAY

accurately completed Systematic Analyses                 Assistant Inspector General 

of Operations or addressed Gulf War                      For Audits and Evaluations 

veterans’ entitlement to mental health


                                                                                              i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    I. 	 Disability Claims Processing ...............................................................................................2
 
           Finding 1              The Houston VARO Could Improve Disability Claims Processing 

                                  Accuracy .....................................................................................................2
 
                                  Recommendations........................................................................................8
 
    II. Management Controls ..........................................................................................................9 

           Finding 2              Oversight Needed To Ensure Complete SAOs ............................................9 

                                  Recommendation .......................................................................................10 

    III. Eligibility Determinations..................................................................................................11 

           Finding 3	             Gulf War Veterans Did Not Always Receive Entitlement Decisions for 

                                  Mental Health Treatment ...........................................................................11 

    IV. Public Contact ....................................................................................................................13 

Appendix A                        VARO Profile and Scope of Inspection .....................................................14
 
Appendix B                        Inspection Summary ..................................................................................16
 
Appendix C                        VARO Director’s Comments.....................................................................17
 
Appendix D                        Office of Inspector General Contact and Staff Acknowledgments .......... 21
 
Appendix E                        Report Distribution ................................................................................... 22
 




                                                                                                                                                 ii
                                                              Inspection of the VARO Houston, TX



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Division contributes to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:
                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In January 2013, we inspected the Houston VARO. The inspection focused
Inspection          on the following four protocol areas: disability claims processing,
                    management controls, eligibility determinations, and public contact. Within
                    these areas, we examined two high risk claims processing areas: temporary
                    100 percent disability evaluations and traumatic brain injury (TBI) claims.
                    We also examined three operational activities: Systematic Analyses of
                    Operations (SAOs), Gulf War veterans’ entitlement to mental health
                    treatment, and the homeless veterans outreach program.

                    We reviewed 30 (4 percent) of 719 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We also examined 30 (43 percent) of
                    70 disability claims related to TBI that VARO staff completed during the
                    period July through September 2012.

Other               	 Appendix A provides details on the VARO and the scope of our
Information            inspection.
                    	 Appendix B provides criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the VARO Director’s comments on a draft of this
                       report.


VA Office of Inspector General                                                                1
                                                                        Inspection of the VARO Houston, TX



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing
Claims              The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy
                    these claims processing issues and assessed their impact on veterans’
                    benefits.

Finding 1	          The Houston VARO Could Improve Disability Claims
                    Processing Accuracy
                    The Houston VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately. Overall, VARO staff
                    incorrectly processed 37 of the total 60 disability claims we sampled,
                    resulting in 233 improper monthly payments to 11 veterans totaling
                    $397,919 ranging from January 2004 until December 2012.

                    We sampled claims related to specific conditions that we considered at
                    higher risk of processing errors. As a result, the errors identified do not
                    represent the universe of disability claims processed at this VARO. As
                    reported by VBA’s Systematic Technical Accuracy Review program as of
                    December 2012, the overall accuracy of the VARO’s compensation
                    rating-related decisions was 87.4 percent—2.6 percentage points below
                    VBA’s target of 90 percent.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the Houston VARO.

Table 1                          Houston VARO Disability Claims Processing Accuracy
                                                                        Claims Inaccurately Processed

                           Type of Claim          Reviewed      Affecting       Potential To
                                                                Veterans’      Affect Veterans’       Total
                                                                 Benefits          Benefits
                      Temporary 100 Percent
                      Disability Evaluations
                                                    30            10                 12                 22
                      Traumatic Brain Injury
                      Claims
                                                    30              1                14                 15
                      Total                         60            11                 26                 37
                    Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at
                    least 18 months or longer and TBI disability claims completed in the fourth quarter FY 2012




VA Office of Inspector General                                                                                2
                                                               Inspection of the VARO Houston, TX


Temporary           VARO staff incorrectly processed 22 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following a veteran’s
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation. For temporary 100 percent evaluations,
                    VARO staff must input suspense diaries in VBA’s electronic system. A
                    suspense diary is a processing command that establishes a date when staff
                    must schedule a medical reexamination. As a suspense diary matures, the
                    electronic system generates a reminder notification to alert staff to schedule
                    the medical reexaminations.

                    VBA policy requires a 65-day due process period when a veteran is notified
                    of a proposed adverse action, such as a reduction of a temporary 100 percent
                    evaluation. At the end of the due process period, immediate action should be
                    taken as appropriate to reduce the evaluation and thereby minimize
                    overpayments. If the veteran timely requests a hearing to present evidence in
                    response to the proposal to reduce the benefits, final action on the reduction
                    cannot take place until after the hearing is held.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at risk of paying inaccurate financial benefits. Available
                    medical evidence showed that 10 of the 22 processing errors we identified
                    affected veterans’ monthly benefits and resulted in 226 improper monthly
                    payments totaling $396,638, ranging from January 2004 until
                    December 2012. Nine errors involved overpayments totaling $388,091 and
                    two errors involved underpayments totaling $8,547. One of the 10 errors
                    contained both an overpayment and an underpayment. The remaining 12 of
                    the total 22 errors had the potential to affect veterans’ benefits. Details on
                    the most significant overpayment and underpayment follow.

                    	 A Rating Veterans Service Representative (RVSR) correctly granted
                       service connection and a 100 percent disability evaluation following a
                       veteran’s liver transplant, and a routine future medical reexamination was
                       requested.     The medical reexamination was not completed until
                       April 2012, more than 8 years later; however, there was no evidence in
                       the veteran’s file to indicate why this delay occurred. Medical evidence
                       showed the veteran’s residuals warranted a 30 percent disability
                       evaluation, and the veteran was notified of the proposed reduction. As of
                       December 2012, VSC staff had still not taken final action to reduce the
                       veteran’s temporary 100 percent disability evaluation. As a result, VA
                       continued processing monthly benefits and overpaid the veteran
                       $221,090 over a period of 8 years and 9 months.
                    	 An RVSR assigned an incorrect effective date of January 4, 2011, for a
                       temporary 100 percent disability evaluation for prostate cancer. Medical

VA Office of Inspector General                                                                  3
                                                               Inspection of the VARO Houston, TX


                        evidence showed a recurrence of cancer on October 22, 2010. Therefore,
                        an earlier effective date was warranted. As a result, the veteran was
                        underpaid $5,277 over a period of 3 months.

                    VARO staff did not schedule medical reexaminations as required for some of
                    the errors identified. In 11 cases, we found scheduling delays from
                    approximately 2 months to 9 years and 1 month.

                    Summaries of the total 22 errors we identified follow.

                    	 Six errors occurred when VSC staff did not timely schedule hearings for
                       veterans to present evidence in response to proposals to reduce their
                       benefits, or not taking immediate action following the hearings.
                    	 Six errors occurred when VSC staff established controls to reduce
                       veterans’ benefits payments, but did not take final action to reduce the
                       benefits. Delays ranging from approximately 3 months to 1 year and
                       6 months elapsed from the time staff should have taken final action to
                       reduce benefits until December 2012.
                    	 Two errors occurred when staff proposed to reduce veterans’ benefits
                       payments, but did not establish controls to manage the proposed
                       reductions. Delays of approximately 1 year and 4 months and 2 years
                       and 9 months elapsed from the time staff should have taken final action
                       to reduce benefits until December 2012.
                    	 Two errors occurred when RVSRs proposed to reduce veterans’
                       temporary 100 percent evaluations when they were still undergoing
                       treatment for their conditions.
                    	 Two errors occurred when staff did not establish suspense diaries in the
                       electronic record, thereby removing the possibility that staff would
                       receive reminder notifications to schedule medical reexaminations.
                    	 Two errors occurred when RVSRs assigned improper effective dates for
                       benefits payments.
                    	 One error occurred when an RVSR granted service connection for
                       prostate cancer without evidence showing it was related to military
                       service.
                    	 One error occurred when staff established a suspense diary, but did not
                       request a medical reexamination when required.

                    The most frequent processing inaccuracies in 14 of the 22 errors resulted
                    from a lack of management oversight to ensure timely action on proposals to
                    reduce veterans’ temporary 100 percent disability evaluations.
                    A January 2011 Compensation and Pension VBA Site Visit report also
                    identified lack of management oversight in this area. Interviews with VSC



VA Office of Inspector General                                                                 4
                                                                Inspection of the VARO Houston, TX


                    managers and staff revealed that delays in finalizing proposed reductions
                    were due to an emphasis on processing higher priority compensation claims.

                    Additionally, the station’s workload management plan did not contain
                    procedures for oversight of veterans’ hearing requests associated with
                    proposed benefit reductions. The VSC Manager was unaware of this lack of
                    oversight and may have continued to overpay veterans receiving temporary
                    100 percent evaluations.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Houston, Texas
Prior VA OIG        (Report No. 10-03770-125, March 21, 2011), we reported that inaccuracies
Inspection          in processing 24 of 27 temporary 100 percent disability evaluations occurred
                    because VARO staff did not properly establish suspense diaries to ensure
                    follow-up on these temporary evaluations. The Director of the Houston
                    VARO agreed to provide refresher training and controls to ensure staff
                    established suspense diaries as reminders to schedule the required medical
                    reexaminations.       Additionally, the Director concurred with our
                    recommendation to review the 735 temporary 100 percent disability
                    evaluations remaining from our sample universe and under the VARO’s
                    jurisdiction to determine if reevaluations were required and take appropriate
                    action. The OIG closed this recommendation in December 2011, based on
                    documentation showing this review of temporary 100 percent disability
                    evaluations was completed, and training was conducted for the appropriate
                    VSC employees in October 2011.

                    During this current inspection, we did not identify any cases after
                    October 2011 where staff did not input suspense diaries in the electronic
                    system to generate reminders to follow up on temporary 100 percent
                    disability evaluations. As such, we made no further recommendation in this
                    area.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response to      Disability Evaluations (Report No. 09-03359-71, January 24, 2011), the
Prior Audit
                    then-Acting Under Secretary for Benefits agreed to review all temporary
Report
                    100 percent disability evaluations and ensure each had a future examination
                    date entered in the electronic record. Our report stated, “If VBA does not
                    take timely corrective action, they will overpay veterans a projected
                    $1.1 billion over the next 5 years.” The then-Acting Under Secretary for
                    Benefits stated in response to our audit report that the target completion date
                    for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    then to June 30, 2012, and then again to December 31, 2012. In
                    January 2013, the Houston VARO received indication the review was still
                    ongoing with the completion deadline extended to January 18, 2013. We are

VA Office of Inspector General                                                                   5
                                                               Inspection of the VARO Houston, TX


                    concerned about the lack of urgency in completing this review, which is
                    critical to minimize the financial risks of making inaccurate benefits
                    payments.

                    During our 2013 inspection, we followed up on VBA’s national review of its
                    temporary 100 percent disability evaluation processing. We sampled
                    40 cases from the lists of cases needing corrective actions that VBA provided
                    to the Houston VARO for review. We determined VARO staff accurately
                    reported taking actions in 37 of 40 cases we reviewed. In 2 of the 40 cases,
                    staff stated they did not take action because the veterans were no longer
                    receiving benefits payments. However, in both cases the veterans were
                    actually still receiving benefits. Staff should have reviewed the available
                    medical evidence to determine if follow-up medical examinations were
                    necessary. In the remaining case, staff did not update the electronic record
                    showing the veteran was entitled to a permanent 100 percent disability
                    evaluation even though they reported doing so. Further, in comparing
                    VBA’s national review lists with the 30 temporary 100 percent disability
                    evaluations we reviewed during our inspection, we found 1 case that VBA
                    had not identified. We will continue monitoring this situation as VBA works
                    to complete its national review.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported      During     Inspections    at    VA      Regional      Offices
                    (Report No. 11-00510-167, May 18, 2011), VBA agreed to develop and
                    implement a strategy for ensuring accurate TBI claims rating decisions. In
                    May 2011, the Under Secretary for Benefits provided guidance to all VARO
                    Directors to implement a policy requiring a second signature on each TBI
                    case an RVSR evaluates until the RVSR demonstrates 90 percent accuracy in
                    TBI claims processing. The policy indicates second-signature reviewers
                    come from the same pool of staff as those used to conduct local station
                    quality reviews.

                    VARO staff incorrectly processed 15 of 30 TBI claims we reviewed. One of
                    the processing errors affected a veteran’s benefits and resulted in
                    seven improper monthly payments totaling $1,281. In this case, an RVSR
                    incorrectly established separate evaluations for a veteran’s TBI and
                    post-traumatic stress disorder when the VA examiner stated it was not
                    possible to differentiate which symptoms were attributable to each condition.
                    In contrast, VBA policy requires staff to assign a single evaluation when a
                    medical examiner states symptoms of TBI and a coexisting mental disorder


VA Office of Inspector General                                                                  6
                                                               Inspection of the VARO Houston, TX


                    cannot be clearly separated. As a result of the processing error, VA overpaid
                    the veteran over a period of 7 months, from May 2012 until December 2012.

                    The remaining 14 processing errors had the potential to affect veterans’
                    benefits. Generally, these errors involved VSC staff not:

                       Assigning a single evaluation for TBI and a coexisting mental disorder
                        when symptoms could not be clearly separated. These errors did not
                        affect veterans’ monthly benefits, but may affect future evaluations.
                       Returning inadequate VA medical examinations as required. Neither
                        VARO staff nor we can ascertain all of the residual disabilities of TBI
                        without an adequate or complete medical examination.

                    Interviews with the VSC Manager and staff revealed they inappropriately
                    used their own interpretations to decide TBI claims. Staff misinterpreted VA
                    policy because they felt they had the authority to separately evaluate TBI and
                    coexisting mental disorders, even when VA examiners stated it was not
                    possible to differentiate which symptoms were attributable to each condition.
                    Seven of the incorrect decisions we identified were approved by second-level
                    reviewers. Three of these seven incorrect decisions were used to determine
                    that some RVSRs were proficient in deciding TBI claims and no longer
                    required their work to be reviewed. As a result of inadequate second-level
                    reviews, veterans may not have always received correct benefits.

Follow Up to        In our previous report, Inspection of the VA Regional Office, Houston, Texas
Prior VA OIG        (Report No. 10-03770-125, March 21, 2011), we reported 22 of 30 TBI
Inspection          processing errors occurred because staff incorrectly interpreted VBA policy.
                    The Director of the Houston VARO concurred with our recommendation to
                    conduct refresher training and implement a plan to improve the quality
                    review process for TBI claims. OIG closed this recommendation in
                    December 2011, after VARO officials provided a VSC memo outlining the
                    required review process and stated appropriate employees received training
                    on processing TBI claims.                Although training occurred in
                    November 2010 and December 2011, VSC staff continued to incorrectly
                    interpret VBA policy.




VA Office of Inspector General                                                                  7
                                                                Inspection of the VARO Houston, TX


                    Recommendations
                    1.	 We recommend the Houston VA Regional Office Director implement a
                        plan to ensure staff timely follow Veterans Benefits Administration
                        policy to reduce temporary 100 percent disability evaluations when
                        required.
                    2.	 We recommend the Houston VA Regional Office Director develop and
                        implement a plan to follow up on hearing requests associated with
                        proposed reductions.
                    3.	 We recommend the Houston VA Regional Office Director conduct a
                        review of the 689 temporary 100 percent disability evaluations remaining
                        from the data we used to perform the inspection and take appropriate
                        action.
                    4.	 We recommend the Houston VA Regional Office Director implement a
                        plan to assess the effectiveness of training and provide refresher training
                        on the proper processing of traumatic brain injury claims.
                    5.	 We recommend the Houston VA Regional Office Director develop and
                        implement a plan to ensure accurate second-signature reviews of
                        traumatic brain injury claims.

Management          The VARO Director concurred with our recommendations. The Houston
Response            VARO runs a weekly report to identify cases requiring medical
                    examinations. These cases are assigned to RVSRs for review and
                    appropriate action. In addition, the Houston VARO began providing training
                    on processing 100 percent temporary disability evaluations in March 2013.
                    The expected completion date for this required training is August 1, 2013.
                    The Director indicated the Houston VARO recently prepared a second
                    hearing room to conduct local hearings, including pre-determination
                    hearings. A hearing will be scheduled within 30 days of a request. All
                    journey-level RVSRs will receive training on conducting hearings during
                    July 2013.
                    The Houston VARO began reviewing the temporary 100 percent disability
                    evaluations remaining from the OIG’s list of cases used during its site visit in
                    January 2013. The Houston VARO expects to complete all reviews by
                    September 30, 2013. Further, all Decision Review Officers (DROs) and
                    RVSRs working on TBI claims will receive TBI training in April 2013, with
                    an expected completion date for this training in September 2013.
OIG Response        The Director’s comments           and    actions   are   responsive    to   the
                    recommendations.




VA Office of Inspector General                                                                    8
                                                               Inspection of the VARO Houston, TX


                    II. Management Controls
Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support the analyses and recommendations identified within each
                    SAO. An SAO is a formal analysis of an organizational element or
                    operational function. SAOs provide an organized means of reviewing VSC
                    operations to identify existing or potential problems and propose corrective
                    actions.    VARO management must publish annual SAO schedules
                    designating the staff required to complete the SAOs by specific dates. The
                    VSC Manager is responsible for ongoing analysis of VSC operations,
                    including completing 11 SAOs annually.

Finding 2           Oversight Needed To Ensure Complete SAOs
                    Ten of the 11 mandated SAOs were incomplete (missing required elements),
                    untimely, or both incomplete and untimely. In addition, 2 of the 11 SAOs
                    used insufficient data for analysis. VSC management did not provide
                    adequate oversight to ensure staff accomplished the SAOs in accordance
                    with VBA policy. Management also did not have an effective mechanism in
                    place to ensure the SAOs were complete. As a result, management may not
                    have adequately identified existing and potential problems for corrective
                    action to improve VSC operations.

                    Management did not ensure SAOs were complete, as required. During an
                    interview, the Assistant Director stated he had been tasked with oversight of
                    all SAOs for the entire VARO. He revealed SAOs were incomplete because
                    he had not effectively communicated expectations to VSC management and
                    staff to ensure all required elements were addressed. We also found VARO
                    staff used outdated VBA policy and focused on the timeliness instead of
                    comprehensiveness of the SAOs. As a result, some of the SAOs did not
                    contain all of the currently required elements.

                    For example, the Appeals SAO did not include all required elements. This
                    SAO did not include review of hearings requested by veterans in response to
                    proposals to reduce their benefits. If a veteran requests a hearing to present
                    additional evidence to show a temporary 100 percent disability evaluation is
                    still required, or to show that an evaluation higher than a proposed reduced
                    evaluation is warranted, VARO staff should timely schedule the hearing and
                    take appropriate action. VBA policy requires a hearing request to be
                    scheduled immediately, if possible within 30 days of the request. In
                    addition, the Houston VARO workload management plan requires
                    appropriate actions to be taken within 15 days after the hearings are
                    transcribed.



VA Office of Inspector General                                                                  9
                                                               Inspection of the VARO Houston, TX


                    We discussed a lack of oversight of veterans’ hearing requests as one cause
                    for inaccuracies in processing temporary 100 percent disability evaluations.
                    If VARO managers had ensured completeness of the related SAO, they
                    would be in a better position to take corrective actions, thus minimizing the
                    financial risks of making inaccurate benefits payments.

Follow up to        In our previous report, Inspection of the VA Regional Office, Houston, Texas
Prior VA OIG        (Report No. 10-03770-125, March 21, 2011), we reported 2 of 12 SAOs
Inspection          were incomplete because management did not provide adequate oversight to
                    ensure staff completed SAOs in accordance with VBA policy. The Director
                    of the Houston VARO agreed to develop and implement a plan to ensure
                    staff complete SAOs timely and address all required elements. The OIG
                    closed this recommendation in December 2011 based on documentation
                    showing VARO staff created a checklist to monitor the completion of SAOs.
                    However, we found during our inspection that VSC staff were using outdated
                    VBA policy and a checklist that was incomplete because it did not address
                    all required elements.

                    Recommendation
                    6.	 We recommend the Houston VA Regional Office Director ensure
                        Veterans Service Center management amends the Systematic Analyses of
                        Operations checklist to address all elements currently required by
                        Veterans Benefits Administration policy and provide refresher training.

Management          The VARO Director concurred with our recommendation. The Houston
Comments            VARO amended the SAO checklist to ensure all required elements are
                    addressed. The Veterans Service Center was provided with a template to
                    ensure reporting consistent with the policy, while providing an organized
                    means for reviewing operations to identify existing or potential problems and
                    proposing corrective actions. On February 21, 2013, both Houston VARO
                    Assistant Directors provided SAO training to all management analysts,
                    supervisors, and managers in the station.

OIG Response        The Director’s comments and actions are responsive to the recommendation.




VA Office of Inspector General                                                                10
                                                                Inspection of the VARO Houston, TX


                    III. Eligibility Determinations
Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to VBA policy in effect prior to December 21, 2012, whenever an
Disorders           RVSR denied a Gulf War veteran service connection for any mental
                    disorder, the RVSR had to consider whether the veteran was entitled to
                    receive mental health treatment. This policy required RVSRs to deny
                    entitlement when no evidence of a mental disorder developed within 2 years
                    of separation from military service.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification known as a tip master
                    to remind staff to consider Gulf War veterans’ entitlement to mental health
                    treatment when denying service connection for a mental disorder. This
                    pop-up notification does not generate if a previous decision did not address
                    entitlement to mental health services and a mental condition is not part of the
                    current claim.

Finding 3           Gulf War Veterans Did Not Always Receive Entitlement
                    Decisions for Mental Health Treatment
                    VSC staff did not properly address whether 19 (63 percent) of 30 Gulf War
                    veterans were entitled to receive treatment for mental disorders. These
                    inaccuracies occurred because VSC management did not have a mechanism
                    to monitor and ensure effectiveness of training in this area. Staff overlooked
                    reminder notifications to consider entitlement to mental health treatment. As
                    a result, veterans may be unaware of their entitlement to treatment for mental
                    disorders and may not get the care they need.

                    VARO staff did not consistently address whether Gulf War veterans were
                    entitled to mental health treatment as required when denying service
                    connection for mental disorders. They also did not always correctly annotate
                    the electronic record when correctly denying this entitlement in the rating
                    decision document. Interviews and a review of the VARO’s training records
                    showed RVSRs did not receive formal refresher training in this area, and
                    some lacked sufficient understanding of VBA’s policy. In 9 of 19 errors,
                    RVSRs overlooked the pop-up notification reminding them to consider
                    entitlement to mental health treatment. The majority of the staff and
                    management we interviewed said the pop-up notification was not effective
                    and easy to ignore.

                    In December 2012, VBA modified its policy to state that RVSRs no longer
                    have to address Gulf War veterans’ entitlement to mental health care in all
                    cases. RVSRs must consider this entitlement when a veteran’s mental health
                    benefit can be granted based on diagnosis of a mental disorder within 2 years

VA Office of Inspector General                                                                  11
                                                              Inspection of the VARO Houston, TX


                    of separation from military service. Because this policy modification
                    became effective in December 2012, during our inspection, we cannot
                    determine the effect it will have on processing these claims. Therefore, we
                    make no recommendation for improvement.




VA Office of Inspector General                                                               12
                                                               Inspection of the VARO Houston, TX


                     IV. Public Contact
Outreach to          In November 2009, VA developed a 5-year plan to end homelessness among
Homeless             veterans by assisting every eligible homeless veteran willing to accept
Veterans             services. VBA generally defines “homeless” as lacking a fixed, regular, and
                     adequate nighttime residence.

                     Congress mandated that at least one full-time employee oversee and
                     coordinate homeless veterans programs at each of 20 VAROs that VA
                     determined to serve the largest veteran populations. VBA guidance, last
                     updated in September 2002, directs that coordinators at the remaining
                     VAROs be familiar with requirements for improving the effectiveness of
                     VARO outreach to homeless veterans.           These requirements include
                     developing and updating a directory of local homeless shelters and service
                     providers. Additionally, the coordinators should attend regular meetings
                     with nearby homeless service providers, local government, and advocacy
                     groups to provide information on VA benefits and services.

                     The Houston VARO has a full-time Homeless Veterans Outreach
                     Coordinator. Our review confirmed that the coordinator was familiar with
                     requirements for improving the effectiveness of VARO outreach to homeless
                     veterans. The coordinator had established collaborative partnerships with
                     local homeless outreach facilities to provide information on VA benefits and
                     services. As such, we made no recommendation for improvement in this
                     area. However, without established performance measures we cannot fully
                     assess the effectiveness of VBA’s outreach efforts. VBA needs a
                     measurement to assess the effectiveness of its homeless veterans outreach
                     efforts.




 VA Office of Inspector General                                                               13
                                                               Inspection of the VARO Houston, TX


Appendix A          VARO Profile and Scope of Inspection
Organization        The Houston VARO administers a variety of services and benefits, including
                    compensation and pension benefits; vocational rehabilitation and
                    employment assistance; specially adapted housing grants; benefits
                    counseling; and outreach to homeless, elderly, minority, and women
                    veterans.

Resources           As of January 2013, the Houston VARO had a staffing level of 592 full-time
                    employees. Of this total, the VSC had 388 employees assigned.

Workload            As of December 31, 2012, the Houston VARO reported 38,083 pending
                    compensation claims.   The average time to complete claims was
                    350.2 days—100.2 days more than the national target of 250.

Scope               We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders.

                    Our review included 30 (4 percent) of 719 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    October 29, 2012. We provided VARO management with 689 claims
                    remaining from our universe of 719 for its review and management of these
                    temporary 100 percent disabilities. As follow-up to our prior inspection, we
                    sampled 40 temporary 100 percent disability evaluations from the SharePoint
                    list VBA provided to the VARO as part of its national review. We reviewed
                    30 (43 percent) of 70 disability claims related to TBI that the VARO
                    completed from July through September 2012.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments affecting entitlement and benefits per this review
                    is clearly a VBA management decision.

                    We assessed the 11 mandatory SAOs the VARO completed in FY 2012. We
                    examined 30 completed claims processed for Gulf War veterans from
                    July through September 2012 to determine whether VSC staff had addressed
                    entitlement to mental health treatment in the rating decision documents as
                    required. Further, we assessed the effectiveness of the VARO’s homeless
                    veterans outreach program.


VA Office of Inspector General                                                                14
                                                                Inspection of the VARO Houston, TX


Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the 90 claims
                    folders we reviewed for temporary 100 percent evaluations, TBI and Gulf
                    War veterans’ entitlement to mental health treatment claims.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders reviewed as part of our Houston
                    VARO inspection did not disclose any problems with data reliability.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained and those instances where our review of claims found
                    no evidence provides a reasonable basis for our findings and conclusions
                    based on our inspection objectives.




VA Office of Inspector General                                                                   15
                                                                       Inspection of the VARO Houston, TX


Appendix B          Inspection Summary

Table 2 reflects the operational activities inspected, applicable criteria, and whether or not we
had reasonable assurance of VARO compliance.



                           Table 2. Houston VARO Inspection Summary
      Five                                                                                      Reasonable
   Operational                                     Criteria                                     Assurance of
    Activities                                                                                  Compliance
    Inspected                                                                                   Yes     No

                                        Disability Claims Processing
 1. Temporary
                   Determine whether VARO staff properly reviewed temporary 100 percent
    100 Percent
                   disability evaluations. (38 CFR 3.103(b)) (38 CFR 3.105(e)) (38 CFR 3.327)
    Disability                                                                                           X
                   (M21-1 MR Part IV, Subpart ii, Chapter 2, Section J) (M21-1MR Part III,
    Evaluations
                   Subpart iv, Chapter 3, Section C.17.e)

 2. Traumatic      Determine whether VARO staff properly processed claims for disabilities
    Brain Injury   related to in-service TBI. (FL 08-34 and 08-36) (Training Letter 09-01)               X
    Claims
                                           Management Controls
 3. Systematic     Determine whether VARO staff properly performed formal analyses of
    Analysis of    their operations through completion of SAOs. (M21-4, Chapter 5)                       X
    Operations

                                          Eligibility Determinations
 4. Gulf War       Determine whether VARO staff properly processed Gulf War veterans’
    Veterans’      claims, considering entitlement to medical treatment for mental illness.
    Entitlement    (38 United States Code 1702) ( M21-1MR Part IX, Subpart ii,                           X
    to Mental      Chapter 2)(M21-1MR Part III, Subpart v, Chapter 7) (FL 08-15) (38 CFR
    Health         3.384) (38 CFR 3.2)
    Treatment
                                               Public Contact
 5. Homeless       Determine whether VARO staff provided effective outreach services.
    Veterans       (Public Law 107-05) (VBA Letter 20-02-34) (VBA Circular 27-91-4)
    Outreach       (FL 10-11) (M21-1, Part VII, Chapter 6) (M-27-1, Part II, Chapter 2)          X
    Program

  Source: VA OIG
  CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                         16
                                                                     Inspection of the VARO Houston, TX


Appendix C             VARO Director’s Comments


                 Department of
                 Veterans Affairs                         Memorandum

         Date:      May 22, 2013

         From:      Director, VA Regional Office Houston, Texas

         Subj:      Inspection of the VA Regional Office, Houston, Texas

           To:      Assistant Inspector General for Audits and Evaluations (52)



                 1. 	 The Houston VARO’s comments are attached on the OIG Draft Report:
                      Inspection of the VA Regional Office, Houston, Texas.

                 2.	 Please refer questions to Wendy Torres, Assistant Director, Houston VA
                     Regional Office at (713) 383-1719.



                    (original signed by:)
                    Pritz Navaratnasingam

                    Director, 

                    Houston VA Regional Office





                    Attachment: 

                    Houston RO updates to OIG recommendations





VA Office of Inspector General                                                                      17
                                                               Inspection of the VARO Houston, TX



        Benefits inspection of the Houston Regional Office
I. Disability Claims Processing
Recommendation 1: We recommend the Houston VA Regional Office Director implement a
plan to ensure staff timely follows Veterans Benefits Administration policy to reduce temporary
100 percent disability evaluations when required.

Director Response: Concur

The Houston Regional Office runs the End Product (EP) 810 data from the Veterans Operations
Report (VOR) weekly, along with checking for any new EP 684s that have been generated by
Compensation Service. The EP 810 report is then filtered by the following Message
Descriptions: 631A Future Physical Examination and 631R Review Need for Reevaluation.
These cases are assigned to the Rating VSRs for review and appropriate action. Proper
controlling EP is then established, and pre-determination proposals are generated as necessary.

Two RVSRS are dedicated to the task of reviewing all pre-determinations notices and reducing
the temporary 100 percent disability evaluation when required. Once the final decision is done,
it is implemented within two business days of completion. One VSR is assigned to review all
past and current dues on EP 600 and refer them for final decision to the RVSRs.

In addition, the Houston RO began providing Training Performance Support System (TPSS)
training on hospitalization and 100 percent temporary disability evaluations in March. The
expected completion date for this training (100% compliance) is August 1, 2013.

Recommendation 2: We recommend the Houston VA Regional Office Director develop and
implement a plan to follow up on hearing requests associated with proposed reductions.

Director Response: Concur

The Houston RO recently prepared a second hearing room to conduct local hearings, to include
pre determination hearings. We will conduct training on hearings for all journey-level RVSRS
during July, 2013. This will allow for more space and resources to conduct these hearings. The
hearings will be scheduled within 30 days of the request. The assignment of a VSR to review all
EP 600 past due and coming dues will assist with increased control over those cases where
hearings have been requested.

Recommendation 3: We recommend the Houston VA Regional Office Director conduct a
review of the 689 temporary 100 percent disability evaluations remaining from the data we used
to perform the inspection and take appropriate action.

Director Response: Concur

On January 17, 2013, the Houston RO began the review of the remaining temporary 100 percent
disability evaluations from the OIG list of cases used during their visit. Corrective actions are



VA Office of Inspector General                                                                18
                                                              Inspection of the VARO Houston, TX


being taken when necessary during the review process. The Houston RO expects to complete all
reviews by September 30, 2013.

Recommendation 4: We recommend the Houston VA Regional Office Director implement a
plan to assess the effectiveness of training and provide refresher training on the proper
processing of traumatic brain injury claims.

Director Response: Concur

The Houston RO began providing traumatic brain injury (TBI) TPSS training (22 hours) to all
DROs and RVSRs working TBI claims (special operation team and appeals, 38 employees), this
also includes all Rating Quality Review Specialist (RQRS), in April 2013.         Expected
completion date for this training (100 percent compliance) is September 30, 2013.

Recommendation 5: We recommend the Houston VA Regional Office Director develop and
implement a plan to ensure accurate second-signature reviews of traumatic brain injury claims.

VBA implemented a policy requiring two signatures on rating decisions involving TBI until
sufficient accuracy is proven on the part of the RVSR. The Quality Review Team currently
conducts reviews of cases completed by the Special Operations Team and Appeals Team prior to
implementation. Once each employee has achieved 90% accuracy on these cases they are
released to single signature. Quality Reviews are then completed by a random selection of these
cases to ensure sustained accuracy.

II. Management Controls
Recommendation 6: We recommend the Houston VA Regional Office Director ensure Veterans
Service Center management amends the Systematic Analyses of Operations checklist to address
all elements currently required by Veterans Benefits Administration policy and provide refresher
training.

Director Response: Concur

The Houston RO has amended the Systematic Analyses of Operations (SAO) checklist to
ensure all elements required IAW M21-4, Chapter 5 are addressed. The Veterans Service
Center was provided with a template to ensure their reporting is consistent with the policy
while providing an organized means for reviewing operations to identify existing or
potential problems and proposing corrective actions. The SAO schedule was also reviewed
and reissued to the VSC with new due dates that would provide sufficient time to research,
analyze, identify potential areas for improvement and make sound recommendations. On
February 21, 2013, both Houston RO Assistant Directors provided SAO training to all
management analysts, supervisors and managers in the station. The training addressed the
preliminary findings provided by the OIG team in their exit briefing.




VA Office of Inspector General                                                                19
                                  Inspection of the VARO Houston, TX


III. Eligibility Determinations
    No recommendations made.

IV. Public Contact

    No recommendations made.




VA Office of Inspector General                                   20
                                                      Inspection of the VARO Houston, TX


Appendix D          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Brent Arronte, Director
                                         Bridget Bertino
                                         Orlan Braman
                                         Michelle Elliott
                                         Scott Harris
                                         Lee Giesbrecht
                                         Rachel Stroup
                                         Dana Sullivan
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                       21
                                                              Inspection of the VARO Houston, TX




Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office Houston Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: John Cornyn, Ted Cruz
                    U.S. House of Representatives: 	Joe Barton; Kevin Brady; Michael C.
                       Burgess, M.D.; John R. Carter; Joaquin Castro; K. Michael Conaway;
                       Henry Cuellar; John Culberson; Lloyd Doggett; Blake Farenthold; Bill
                       Flores; Pete P. Gallego; Louie Gohmert; Kay Granger; Al Green; Gene
                       Green; Ralph M. Hall; Jeb Hensarling; Rubén Hinojosa; Sheila Jackson
                       Lee; Eddie Bernice Johnson; Sam Johnson; Kenny Marchant; Michael T.
                       McCaul; Randy Neugebauer; Pete Olson; Beto O’Rourke; Ted Poe; Pete
                       Sessions; Lamar Smith; Steve Stockman; Mac Thornberry; Marc Veasey;
                       Filemon Vela; Randy K. Weber, Sr.; Roger Williams


                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               22
